                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: Al2020004                                                                        Page   i   of 1



               Our office received an allegation of significant plagiarism ofNSF-funded work 1 into two
        publications authored by other individuals. 2 Our initial review found that the publications
        conta!ned extensive material copied from the NSF-funded report.

               Documents our office received indicated one of the authors (Subject) 3 accepted primary
        responsibility for authoring the papers containing the plagiarism, and that his institution4 formed
        a committee to investigate the matter. We contacted the Subject who confirmed that, as first
        author of the papers, he took full responsibility.

                We contacted the director5 ofthe Subject's institution. We provided him with a copy of
         the documents and informed;him that our inquiry concluded there was sufficient substance to
         warrant an investigation. We explained that, because the allegation involved a non-U.S. citizen
         and institution, our jurisdictional limitations precluded us from continuing to pursue the matter,
         and asked whether his institution would be conducting an investigation.

                 In his response, the director confirmed that his institution convened a committee to
         investigate the matter and to take action against the Subject. He said he would inform our office
         of the investigation's outcome at the concl4sion of its process.

                  Accordingly, this case is closed and no further action will be taken.


        \




NSF OIG Form 2 (11102)
